CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
P.O. Box 200  Whittier, CA 90608-0200
(562) 698-8326  FAX (562) 698-2783
www.cusocal.org

THIS IS YOUR CREDIT CARD ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTHIN-LENDING DISCLOSURE STATEMENTS, VISA CU SOCAL TOPAZ, VISA PLATINUM REWARDS AND
SECURED VISA PLATINUM REWARDS AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING
THE USE OF YOUR VISA CU SOCAL TOPAZ, VISA PLATINUM REWARDS AND SECURED VISA PLATINUM
REWARDS CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO
READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

_______%

VISA CU SoCal Topaz:
This APR may vary with the market based on the Prime Rate.

_______%

VISA Platinum Rewards:
This APR may vary with the market based on the Prime Rate.

_______%

Secured VISA Platinum Rewards:
This APR may vary with the market based on the Prime Rate.
APR For Balance Transfers

VISA CU SoCal Topaz: _______% Introductory APR for 6 months from the date of each transfer.
After that, Your APR will be ________%. This APR will vary with the market based on the
Prime Rate.
VISA Platinum Rewards: _______%
This APR may vary with the market based on the Prime Rate.
Secured VISA Platinum Rewards: _______%
This APR may vary with the market based on the Prime Rate.

APR For Cash Advances

VISA CU SoCal Topaz: _______%
This APR may vary with the market based on the Prime Rate.
VISA Platinum Rewards: _______%
This APR may vary with the market based on the Prime Rate.
Secured VISA Platinum Rewards: _______%
This APR may vary with the market based on the Prime Rate.

Penalty APR and When
it Applies

19.90%
This APR may be applied to Your Account if:
1) You make a late payment
How Long Will The Penalty APR Apply? If Your APRs are increased for this reason, the Penalty
APR applied to transactions that occur after the increase may be applied indefinitely. For
transactions that occurred prior to the effective date of the increase, the increase will apply
indefinitely unless 6 consecutive payments are received on or before the due date during the sixmonth period following such increase.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge You
interest on purchases if You pay Your entire balance owed by the due date each month. We will
begin charging interest on balance transfers and cash advances on the transaction date.

Minimum Interest Charge

If You are charged interest, the charge will be no less than $0.50.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Please refer to TOP OF PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2019-2021. All Rights Reserved.

Page 1 of 4

OTBS 016CC FRB_Web CUSC (5/21)

Fees
Transaction Fees
 Cash Advance
 Balance Transfer
 Foreign Transaction

2.00% of each advance.
For VISA CU SoCal Topaz, 2.00% of each transfer.
1.00% of each foreign currency transaction in U.S. Dollars.
0.80% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
 Returned Payment
 Late Payment

Up to $25.00
Up to $10.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Loss of Introductory APR: We may end Your Introductory APR, and apply the Penalty APR if You make a late payment.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
Please refer to PAGE 1 for more important information about Your Account
DEFINITIONS. In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean CREDIT UNION OF SOUTHERN CALIFORNIA. The words "You" and "Your"
mean each person accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any VISA CU SoCal
Topaz, VISA Platinum Rewards or Secured VISA Platinum Rewards Credit Card issued to You by Us and any duplicates or renewals. The word "Account" means the
VISA CU SoCal Topaz, VISA Platinum Rewards or Secured VISA Platinum Rewards Credit Card Account established for You under this Agreement. "Convenience Check"
means the special Account access devices that We may provide for Your use from time to time. If this is a joint Account, read singular pronouns in the plural.
PROMISE TO PAY. You understand that the following terms and conditions constitute Our Agreement with You. You may request advances on Your Account through a variety
of means which could include (but may not be limited to) telephonic requests, Convenience Checks, Credit Cards and the like. Regardless of the means by which any advance
is made, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for
use of Your Account, including Finance Charges and other fees or charges described herein.

Variable Rate
Index

Margin

Monthly
Periodic Rate

ANNUAL
PERCENTAGE RATE

VISA CU SoCal Topaz

____________

____________

____________

____________

VISA Platinum Rewards

____________

____________

____________

____________

Secured VISA Platinum Rewards

____________

____________

____________

____________

Card Type

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial institutions.
You agree not to use Your Card for illegal transactions including, but not limited to,
advances made for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.
SECURITY. Collateral (other than household goods or any dwelling) given as security
under any other loan You may have with Us will secure all amounts You owe Us now
and in the future if that status is reflected in the "Truth-in-Lending Disclosure" in any
particular Agreement evidencing such debt.
CONSENSUAL LIEN ON SHARES. You grant and consent to a lien on Your
shares with Us (except for IRA and Keogh accounts) and any dividends due
or to become due to You from Us to the extent You owe on any unpaid Credit
Card balance.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Secured VISA
Platinum Rewards Credit Card, You agree to give Us a specific pledge of shares which
will equal 105.00% of Your approved Credit Limit. In the event that You default on
Your Secured VISA Platinum Rewards Credit Card, We may apply these shares
toward the repayment of any amount owed on such Credit Card. You may cancel Your
Secured VISA Platinum Rewards Credit Card at any time by paying any amounts
owed on such Card. To be certain that Your entire balance and all advances are paid,
any shares pledged may not be available to You for 30 days after You have cancelled
and any outstanding balance is paid in full.

the advances which caused You to exceed Your Credit Limit(s). Even if Your unpaid
balance is less than Your Credit Limit(s), You will have no credit available during any
time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand
that any such Account access device(s) will be provided telephonically, and only to
the primary Borrower. We may refuse to follow any instructions which run counter
to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the right
to repay at any time without penalty. You also understand that You will only be
charged periodic Finance Charges to the date You repay Your entire balance. You
may make larger payments without penalty. Any partial payment or prepayment will
not delay Your next scheduled payment. All payments to Us must be in lawful
money of the United States. We may apply each payment to whichever Card type
We wish. Except as required by law, We may apply payments at Our discretion.
Any unpaid portion of the Finance Charge will be paid by subsequent payments
and will not be added to Your principal balance. You understand that any delay in
the repayment of Your unpaid balance will increase Your periodic Finance Charges
and any acceleration in the repayment of Your unpaid balance will decrease Your
periodic Finance Charges.

LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for which
You are approved. Unless You are in default, the Credit Limits established for You will
generally be self-replenishing as You make payments.

Minimum Payments will be an amount equal to 3.00% of Your new unpaid balance at
the end of each billing cycle, subject to the lesser of $25.00 or Your balance, plus any
portion of the Minimum Payments shown on prior statement(s) which remains unpaid,
plus any amount that exceeds Your approved Credit Limit.

You will keep Your unpaid balance within Your Credit Limit(s) set by Us, and You will
pay any amount over Your Credit Limit(s) on Our demand whether or not We authorize

You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.

Copyright Oak Tree Business Systems, Inc., 2019-2021. All Rights Reserved.

Page 2 of 4

OTBS 016CC FRB_Web CUSC (5/21)

FINANCE CHARGES. In the case of any transactions under Your Account, the
balances subject to the periodic Finance Charge are the average daily transactions
balances outstanding during the month (including new transactions).
To get the average daily balance for purchases, We take the beginning balance of
purchases on Your Account each day, add any new purchases, debit adjustments or
other charges and subtract any payments, credits and unpaid Finance Charges. This
gives Us the daily balance for purchases. Then, We add up all these daily balances
for the billing cycle and divide them by the number of days in the billing cycle. The
result is the average daily balance for purchases. The Finance Charge for a billing
cycle is then computed by multiplying the average daily balance subject to a Finance
Charge by the Monthly Periodic Rate. Your due date is at least 25 days after the close
of each billing cycle. You can avoid Finance Charges on purchases by paying the full
amount of the entire balance owed each month by the due date. Otherwise, the new
balance of purchases, and subsequent purchases from the date they are posted to
Your Account, will be subject to a Finance Charge.
To get the average daily balance for balance transfers, We take the beginning balance
of balance transfers on Your Account each day, add any new balance transfers, debit
adjustments or other charges and subtract any payments, credits and unpaid Finance
Charges. This gives Us the daily balance for balance transfers. Then, We add up all
these daily balances for the billing cycle and divide them by the number of days in the
billing cycle. The result is the average daily balance for balance transfers. The Finance
Charge for a billing cycle is then computed by multiplying the average daily balance
subject to a Finance Charge by the Monthly Periodic Rate. Balance transfers are
always subject to a Finance Charge from the later of the date they are posted to Your
Account or from the first day of the billing cycle in which the balance transfer is posted
to Your Account.
To get the average daily balance for cash advances, We take the beginning balance
of cash advances on Your Account each day, add any new cash advances, debit
adjustments or other charges and subtract any payments, credits and unpaid Finance
Charges. This gives Us the daily balance for cash advances. Then, We add up all
these daily balances for the billing cycle and divide them by the number of days in the
billing cycle. The result is the average daily balance for cash advances. The Finance
Charge for a billing cycle is then computed by multiplying the average daily balance
subject to a Finance Charge by the Monthly Periodic Rate. Cash advances are
always subject to a Finance Charge from the later of the date they are posted to
Your Account or from the first day of the billing cycle in which the cash advance is
posted to Your Account.
For VISA CU SoCal Topaz, each balance transfer transaction, whenever made, will
be subject to a discounted introductory Monthly Periodic Rate of ___________%
(corresponding to an ANNUAL PERCENTAGE RATE of __________%) for a period
of six months from the date of such balance transfer. Upon the expiration of the six
month Introductory Rate period for the transferred balance, the Monthly Periodic Rate
applicable to the transferred balance existing at that time and in the future will
immediately increase to the non-introductory variable rate that would otherwise apply.
The total Finance Charge You owe for each billing cycle is the sum of all the Finance
Charges due for the balances of purchases, balance transfers and cash advances.
The minimum FINANCE CHARGE that You will be required to pay in any billing cycle
that a Finance Charge is due is $0.50.
VARIABLE RATE. All transactions are subject to a Variable Rate which is based on
the highest Prime Rate as published in the money rates section of The Wall Street
Journal in effect on the last day of each calendar quarter of each year ("Index") plus
Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index
will cause changes in the Interest Rate on the first day of the billing cycle of the month
immediately following any such change in the Index. Increases or decreases in the
Interest Rate will cause like increases or decreases in the Finance Charge and will
affect the number of Your regularly scheduled payments. Your Interest Rate will never
be greater than 19.90%, and will apply to Your remaining principal balance.
LATE CHARGE. If Your payment is 14 or more days late, You will be charged the
lesser of: (a) $10.00; or (b) the amount of the required minimum payment.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the billing
currency (U.S. dollars) will be: (a) a rate selected by VISA from the range of rates
available in wholesale currency markets for the applicable central processing date,
which rate may vary from the rate VISA itself receives; or (b) the governmentmandated rate in effect for the applicable central processing date. For transactions
that are initiated in a foreign currency, You will be charged 1.00% of the final
settlement amount. For transactions occurring in foreign countries and initiated in U.S.
Dollars, You will be charged 0.80% of the final settlement amount. Transactions
initiated via the internet with merchants or other parties located outside of the United
States of America are deemed to occur in the foreign country where the merchant or
other party is located.
OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) $25.00 or the required minimum payment amount for
Copyright Oak Tree Business Systems, Inc., 2019-2021. All Rights Reserved.

the returned payment, whichever is less, for any check (or other negotiable instrument
used for payment) which is returned unpaid; (b) $20.00 for each Card that You request
be provided on an expedited basis; (c) $10.00 for each Convenience Check that You
request stop payment; (d) $10.00 for the removal of a stop payment previously placed
on a Convenience Check; (e) $3.00 each time You request We furnish a duplicate
copy of a statement; (f) $15.00 each time You request We furnish a copy of any sales
draft, voucher or similar document; (g) $25.00 each time a Convenience Check is
presented for payment (when there is insufficient available credit to pay such
Convenience Check), subject to a maximum of 3 such charges each calendar day;
(h) an amount equal to 2.00% of each cash advance; and (i) for VISA CU SoCal
Topaz, an amount equal to 2.00% of each transfer.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each month in which there is a debit or credit
balance or when a Finance Charge is imposed. We need not send You a statement if
We feel Your Account is uncollectible or if We have started collection proceedings
against You because You defaulted. EACH STATEMENT IS DEEMED TO BE A
CORRECT STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A BILLING
ERROR PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under no
obligation to honor Your Convenience Checks if: (1) by paying a Convenience Check,
You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks have
been reported lost or stolen; (3) Your Account has been cancelled or has expired. If a
postdated Convenience Check is paid and, as a result, any other Convenience Check
is returned unpaid, We are not responsible for any resulting loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us;
or (b) You should die, become involved in any insolvency, receivership or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You
owe money on Your Account; or (d) A judgment or tax lien should be filed against You
or any attachment or garnishment should be issued against any of Your property or
rights, specifically including anyone starting an action or proceeding to seize any of
Your funds on deposit with Us; and/or (e) We should, in good faith, believe Your ability
to repay Your indebtedness hereunder is or soon will be impaired, time being of the
very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel Your
rights under this Agreement, require the return of all access devices and declare the
entire balance of every Feature Category of Your Account immediately due and
payable, without prior notice or demand.
PENALTY RATE. If Your payment is more than 60 days past due, subject to
applicable law, the Monthly Periodic Rate applicable to Your entire balance of
transactions will increase to a fixed Monthly Periodic Rate of 1.6584% (corresponding
ANNUAL PERCENTAGE RATE 19.90%). During the six month period following such
an increase, if We receive the first six consecutive required minimum periodic
payments when due, the rate applicable to the balance of transactions that occurred
prior to the effective date of the increase will be returned to the standard rate that
would have otherwise been in effect.
COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection and
reasonable attorneys' fees incurred in the course of collecting any amounts owed
under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any other
payments, even if they are marked "paid in full" without losing any of Our rights under
this Agreement. If any provision of this or any related agreement is determined to be
unenforceable or invalid, all other provisions remain in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move or
otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," which is delivered together with this
Agreement or at a later date becomes an integrated part of this Agre ement
and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device;
or by authorizing another to use Your Account, You agree to and accept its terms.

Page 3 of 4

OTBS 016CC FRB_Web CUSC (5/21)

UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other financial
information related to You, at Our request. You also agree that We may, from time to
time, as We deem necessary, make inquiries pertaining to Your employment, credit
standing and financial responsibility in accordance with applicable laws and
regulations. You further agree that We may give information about the status and
payment history of Your Account to consumer credit reporting agencies, a prospective
employer or insurer, or a state or federal licensing agency having any apparent
legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account at any time, whether or
not You are in default. You will, in any case, remain liable to pay any unpaid balances
according to the terms of Your Account.



Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact Us:




Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if You want
to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.
What Will Happen After We Receive Your Letter

OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.

When We receive Your letter, We must do two things:
1)

ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. A Personal Identification
Number (PIN) can be obtained for use with participating Automated Teller Machines
(ATMs). This PIN is confidential and should not be disclosed to anyone. You may use
Your PIN to access Your Account and all sums advanced will be added to Your
Account balance. In the event a use of Your PIN constitutes an Electronic Fund
Transfer, the terms and conditions of Your Electronic Fund Transfer Agreement may
also affect Your rights.

2)

Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

While We investigate whether or not there has been an error:



We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement is
the contract which solely applies to all transactions involving the Card.



UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at (866) 287-6225, or by writing
to Us at P.O. Box 200, Whittier, CA 90608-0200. In any case, Your liability will not
exceed $50.00.



REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions and others to accept the
Cards or Convenience Checks, or electronic terminals to honor the Cards or complete
a Card withdrawal, or for their retention of the Cards or Convenience Checks.



TRANSACTION SLIPS. Your monthly statement will identify that merchant, electronic
terminal or financial institution at which transactions were made, but sales, cash
advance, credit or other slips cannot be returned with the statement.

If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom We reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.

LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, You will immediately call Us during regular business hours
at (562) 698-8326 or (866) 287-6225, and after hours, on weekends and holidays, at
(800) 556-5678. You may also write to Us at P.O. Box 200, Whittier, CA 90608-0200
to report lost or stolen Credit Cards or Convenience Checks.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your Account.
If Your credits and payments exceed what You owe Us, We will hold and apply this credit
against future purchases and cash advances, or if it is $1.00 or more refund it on Your
written request or automatically deposit it to Your share account after 6 months.



After We finish Our investigation, one of two things will happen:



Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1)

GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of California, except to the extent that such laws are inconsistent with controlling
federal law.
Your Billing Rights: Keep this Document for Future Use

2)

This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.

3)

What To Do If You Find A Mistake On Your Statement

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.

Copyright Oak Tree Business Systems, Inc., 2019-2021. All Rights Reserved.

The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You
the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at P.O. Box 200, Whittier, CA 90608-0200.

If You think there is an error on Your statement, write to Us at P.O. Box 200, Whittier,
CA 90608-0200. In Your letter, give Us the following information:




If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You
as delinquent if You do not pay the amount We think You owe.

While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that
point, if We think You owe an amount and You do not pay, We may report You
as delinquent.

Page 4 of 4

OTBS 016CC FRB_Web CUSC (5/21)

P.O. Box 200  Whittier, CA 90608-0200
(562) 698-8326  FAX (562) 698-2783
www.cusocal.org

PRICING INFORMATION ADDENDUM –
CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT CARD ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL
TRUTH-IN-LENDING DISCLOSURE STATEMENTS, VISA CU SOCAL TOPAZ, VISA PLATINUM
REWARDS AND SECURED VISA PLATINUM REWARDS AGREEMENTS, AND ANY SPECIAL
INSTRUCTIONS REGARDING THE USE OF YOUR VISA CU SOCAL TOPAZ, VISA PLATINUM
REWARDS AND SECURED VISA PLATINUM REWARDS CREDIT CARDS, AND/OR ANY OTHER
ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND
NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

_____% _____%

VISA CU SoCal Topaz:
based on Your creditworthiness at the time You
establish Your Account.
These APRs will vary with the market based on the Prime Rate.

_____% _____%

VISA Platinum Rewards:
based on Your creditworthiness at the time
You establish Your Account.
These APRs will vary with the market based on the Prime Rate.

_____%

Secured VISA Platinum Rewards:
This APR will vary with the market based on the Prime Rate.
APR For Balance
Transfers

VISA CU SoCal Topaz: ________% Introductory APR for 6 months from the date of each transfer.
After that Your APRs will be _______% - _______% based on Your creditworthiness.
These APRs will vary with the market based on the Prime Rate.
VISA Platinum Rewards: _______% - _______%, based on Your creditworthiness at the time You
establish Your Account.
These APRs will vary with the market based on the Prime Rate.
Secured VISA Platinum Rewards: _______%
This APR will vary with the market based on the Prime Rate.

APR For Cash Advances

VISA CU SoCal Topaz: _______% - _______%, based on Your creditworthiness at the time You
establish Your Account.
These APRs will vary with the market based on the Prime Rate.
VISA Platinum Rewards: _______% - _______%, based on Your creditworthiness at the time You
establish Your Account.
These APRs will vary with the market based on the Prime Rate.
Secured VISA Platinum Rewards: _______%
This APR will vary with the market based on the Prime Rate.

Penalty APR and When
it Applies

19.90%
This APR may be applied to Your Account if:
1) You make a late payment
How Long Will The Penalty APR Apply? If Your APRs are increased for this reason, the Penalty
APR applied to transactions that occur after the increase may be applied indefinitely. For transactions
that occurred prior to the effective date of the increase, the increase will apply indefinitely unless 6
consecutive payments are received on or before the due date during the six-month period following
such increase.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge You interest
on purchases if You pay Your entire balance owed by the due date each month. We will begin
charging interest on balance transfers and cash advances on the transaction date.

Minimum Interest Charge

If You are charged interest, the charge will be no less than $0.50.

Please refer to TOP OF PAGE 2 for more important information about Your Account
Copyright Oak Tree Business Systems, Inc., 2019-2021. All Rights Reserved.

Page 1 of 3

OTBS 016ACC FRB_Web CUSC (5/21)

Fees
Transaction Fees
 Cash Advance
 Balance Transfer
 Foreign Transaction

2.00% of each advance.
For VISA CU SoCal Topaz, 2.00% of each transfer.
1.00% of each foreign currency transaction in U.S. Dollars.
0.80% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
 Returned Payment
 Late Payment

Up to $25.00
Up to $10.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Loss of Introductory APR: We may end Your Introductory APR, and apply the Penalty APR if You make a late payment.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
Please refer to PAGE 1 for more important information about Your Account

FINANCE CHARGES. In the case of any transactions under Your Account, the balances subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions).
To get the average daily balance for purchases, We take the beginning balance of purchases on Your Account each day, add any new purchases, debit adjustments or other
charges and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance for purchases. Then, We add up all these daily balances for the
billing cycle and divide them by the number of days in the billing cycle. The result is the average daily balance for purchases. The Finance Charge for a billing cycle is then
computed by multiplying the average daily balance subject to a Finance Charge by the Monthly Periodic Rate. Your due date is at least 25 days after the close of each billing
cycle. You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month by the due date. Otherwise, the new balance of
purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge.
To get the average daily balance for balance transfers, We take the beginning balance of balance transfers on Your Account each day, add any new balance transfers ,
debit adjustments or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily bal ance for balance transfers. Then, We add
up all these daily balances for the billing cycle and divide them by the number of days in the billing cycle. The result is t he average daily balance for balance transfers.
The Finance Charge for a billing cycle is then computed by multiplying the average daily balance subject to a Finance Charge by the Monthly Periodic Rate. Balance
transfers are always subject to a Finance Charge from the later of the date they are posted to Your Account or from the first day of the billing cycle in which the balance
transfer is posted to Your Account.
To get the average daily balance for cash advances, We take the beginning balance of cash advances on Your Account each day, add any new cash advances, debit
adjustments or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance for cash advances. Then, We add up all these
daily balances for the billing cycle and divide them by the number of days in the billing cycle. The result is the average daily balance for cash advances. The Finance Charge
for a billing cycle is then computed by multiplying the average daily balance subject to a Finance Charge by the Monthly Periodic Rate. Cash advances are always subject to a
Finance Charge from the later of the date they are posted to Your Account or from the first day of the billing cycle in which the cash advance is posted to Your Account.
For VISA CU SoCal Topaz, each balance transfer transaction, whenever made, will be subject to a discounted introductory Monthly Periodic Rate of ___________%
(corresponding to an ANNUAL PERCENTAGE RATE of __________%) for a period of six months from the date of such balance transfer. Upon the expiration of the six month
Introductory Rate period for the transferred balance, the Monthly Periodic Rate applicable to the transferred balance existing at that time and in the future will immediately
increase to the non-introductory variable rate that would otherwise apply.
The total Finance Charge You owe for each billing cycle is the sum of all the Finance Charges due for the balances of purchases, balance transfers and cash advances.
The minimum FINANCE CHARGE that You will be required to pay in any billing cycle that a Finance Charge is due is $0.50.
For VISA CU SoCal Topaz, all balances will be charged finances at a variable Monthly Periodic Rate of ___________% - __________% (corresponding ANNUAL
PERCENTAGE RATE ___________% - __________%), depending on Your creditworthiness.
For VISA Platinum Rewards, all balances will be charged finances at a variable Monthly Periodic Rate of ___________% - __________% (corresponding ANNUAL
PERCENTAGE RATE ________% - _______%), depending on Your creditworthiness.
For Secured VISA Platinum Rewards, all balances will be charged finances at a variable Monthly Periodic Rate of __________% (corresponding ANNUAL PERCENTAGE
RATE ________%).
VARIABLE RATE. For purchases, balances are subject to a Variable Rate which is based on the highest Prime Rate as published in the money rates section of The Wall street
Journal in effect on the last day of each calendar quarter of each year ("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will
cause changes in the Interest Rate on the first day of the billing cycle of the month immediately following any such change in the Index.
For VISA CU SoCal Topaz balance transfers, following the expiration of any Introductory Rate period applicable to the transferred balance, such balance is subject to a Variable
Rate which is based on the highest Prime Rate as published in the money rates section of The Wall Street Journal in effect on the last day of each calendar quarter of each
year ("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate on the day that any Introductory
Rate period for the transferred balance expires, and subsequently, on the first day of the billing cycle of the month immediately following any such change in the Index.

Copyright Oak Tree Business Systems, Inc., 2019-2021. All Rights Reserved.

Page 2 of 3

OTBS 016ACC FRB_Web CUSC (5/21)

For VISA Platinum Rewards and Secured VISA Platinum Rewards balance transfers, balances are subject to a Variable Rate which is based on the highest Prime Rate as
published in the money rates section of The Wall Street Journal in effect on the last day of each calendar quarter of each year ("Index") plus Our Margin. The Index plus the
Margin equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate on the first day of the billing cycle of the month immediately following any such
change in the Index.
For cash advances, balances are subject to a Variable Rate which is based on the highest Prime Rate as published in the money rates section of The Wall Street Journal in
effect on the last day of each calendar quarter of each year ("Index'') plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will cause
changes in the Interest Rate on the first day of the billing cycle of the month immediately following any such change in the Index.
For all balances, increases or decreases in the Interest Rate will cause like increases or decreases in the Finance Charge and will affect the number of Your regularly scheduled
payments. Your Interest Rate will never be greater than 19.90%, and will apply to Your remaining principal balance.
For VISA CU SoCal Topaz, the Margin applicable to Your Account will be 3.65% - 10.65% depending on Your creditworthiness.
For VISA Platinum Rewards, the Margin applicable to Your Account will be 5.65% - 12.65% depending on Your creditworthiness.
For Secured VISA Platinum Rewards, the Margin applicable to Your Account will be 11.65%.

Copyright Oak Tree Business Systems, Inc., 2019-2021. All Rights Reserved.

Page 3 of 3

OTBS 016ACC FRB_Web CUSC (5/21)

